<html>
<title> - THE SYRIAN REFUGEE CRISIS</title>
<body><pre>[Senate Hearing 113-880]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-880

                       THE SYRIAN REFUGEE CRISIS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 7, 2014

                               __________

                          Serial No. J-113-45

                               __________

         Printed for the use of the Committee on the Judiciary





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









  		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-392 PDF                WASHINGTON : 2018                 
















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
AL FRANKEN, Minnesota                TED CRUZ, Texas, Ranking Member
CHRISTOPHER A. COONS, Delaware       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      JOHN CORNYN, Texas
MAZIE HIRONO, Hawaii                 ORRIN G. HATCH, Utah
                 Joseph Zogby, Democratic Chief Counsel
                 Scott Keller, Republican Chief Counsel 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                       JANUARY 7, 2014, 2:29 P.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cruz, Hon. Ted, a U.S. Senator from the State of Texas...........     4
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................    53
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..     6
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont,
    prepared statement...........................................    56
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     6

                               WITNESSES

Witness List.....................................................    27
Groom, Molly, Acting Deputy Assistant Secretary, Office of 
  Policy, U.S. Department of Homeland Security, Washington, DC...    12
    prepared statement...........................................    44
Lindborg, Hon. Nancy E., Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................    10
    prepared statement...........................................    37
Richard, Hon. Anne C., Assistant Secretary, Bureau of Population, 
  Refugees, and Migration, U.S. Department of State, Washington, 
  DC.............................................................     7
    prepared statement...........................................    28

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

al Muqdad, Omar, Journalist and Syrian Refugee, statement........   154
American-Arab Anti-Discrimination Committee (ADC), Washington, 
  DC, statement..................................................    74
American Baptist Home Mission Societies (ABHMS), Rev. Aundreia 
  Alexander, JD, Director, Office of Immigration and Refugee 
  Services, Valley Forge, Pennsylvania, statement................   240
American Friends Service Committee (AFSC), Philadelphia, 
  Pennsylvania, statement........................................    79
Amnesty International USA, New York, New York, statement.........    82
Ayoub, Christine, statement......................................    92
Catholic Relief Services (CRS), Dr. Carolyn Y. Woo, President and 
  Chief Executive Officer, Baltimore, Maryland, statement........   103
Center for Applied Linguistics (CAL), Washington, DC, statement..    95
Center for Victims of Torture, The, (CVT), St. Paul, Minnesota, 
  statement......................................................   111
Charbaji, Mohamad Eiad, Journalist, statement....................   145
Church World Service (CWS), New York, New York, statement........   117
Cooperative for Assistance and Relief Everywhere (CARE USA), 
  David Ray, Head of Policy and Advocacy, Atlanta, Georgia, 
  statement......................................................    98
Episcopal Church, The, Deborah Stein, Director, Episcopal 
  Migration Ministries, and Katie Conway, Immigration and Refugee 
  Policy Analyst, New York, New York, statement..................   251
Evangelical Lutheran Church in America, The, (ELCA), Chicago, 
  Illinois, statement............................................   118
Friends Committee on National Legislation (FCNL), Washington, DC, 
  statement......................................................   125
Hebrew Immigrant Aid Society (HIAS), Silver Spring, Maryland, and 
  Iraqi Refugee Assistance Project (IRAP), New York, New York, 
  joint statement................................................   197
Human Rights First, New York, New York, and Washington, DC, 
  statement......................................................   207
Human Rights Initiative of North Texas, statement................   253
Institute of International Education (IIE), Daniela Kaisth, Vice 
  President, External Affairs and IIE Initiatives, New York, New 
  York, statement................................................   129
International Rescue Committee (IRC), Sharon Waxman, Vice 
  President for Public Policy and Advocacy, Washington, DC, 
  statement......................................................   225
KARAMAH: Muslim Women Lawyers for Human Rights, Rockville, 
  Maryland, statement............................................   242
Lutheran Immigration and Refugee Service (LIRS), Baltimore, 
  Maryland, statement............................................   139
McCain, Hon. John, a U.S. Senator from the State of Arizona; Hon. 
  Sheldon Whitehouse, a U.S. Senator from the State of Rhode 
  Island; Hon. Kirsten E. Gillibrand, a U.S. Senator from the 
  State of New York; Hon. Christopher A. Coons, a U.S. Senator 
  from the State of Delaware; Hon. Richard Blumenthal, a U.S. 
  Senator from the State of Connecticut; and Hon. Kelly A. 
  Ayotte, a U.S. Senator from the State of New Hampshire; letter 
  addressed to President Barack Obama, December 20, 2013.........    57
Mennonite Central Committee (MCC), Akron, Pennsylvania, statement   192
Mercy Corps, Andrea Koppel, Vice President, Global Engagement and 
  Policy, Portland, Oregon, statement............................   218
Muslim Public Affairs Council (MPAC), Washington, DC, and Los 
  Angeles, California, statement.................................   147
National Association of Evangelicals (NAE) World Relief, 
  Washington, DC, statement......................................   150
Okar, Ayman A., Syrian refugee, statement........................   248
Oxfam America, Noah Gottschalk, Senior Policy Advisor, 
  Washington, DC, statement......................................   157
Physicians for Human Rights (PHR), Washington, DC, statement.....   221
Refugee Council USA, Washington, DC, statement...................   162
Refugees International, Washington, DC, statement................   179
Save the Children, Michael Klosson, Vice President, Policy and 
  Humanitarian Response, Fairfield, Connecticut, statement.......   133
Syria Relief and Development (SRD), Overland Park, Kansas, and 
  United Muslim Relief (UMR), Washington, DC, statement..........   187
Syrian American Medical Society (SAMS), Washington, DC, statement   170
Syrian Emergency Task Force, Washington, DC, statement...........   232
Syrian Human Rights Organization Swasia, Muhanad Al-Hasani, 
  President, statement...........................................   233
United Nations International Children's Emergency Fund (UNICEF), 
  Ted Chaiban, Director, Emergency Programs, statement...........    69
United States Conference of Catholic Bishops (USCCB), Most 
  Reverend Eusebio Elizondo, M.Sp., Chairman, Committee on 
  Migration, statement...........................................    59
Urang, Sally, RN, CNM, Volunteer in Jordan, statement--Redacted..   143

 
                       THE SYRIAN REFUGEE CRISIS

                              ----------                              


                        TUESDAY, JANUARY 7, 2014

                      United States Senate,
Subcommittee on the Constitution, Civil Rights, and 
                                      Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
Room SH-216, Hart Senate Office Building, Hon. Dick Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Whitehouse, Klobuchar, Cruz, and 
Graham.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good afternoon. This hearing of the 
Subcommittee on the Constitution, Civil Rights and Human Rights 
will come to order. Today's hearing is entitled ``The Syrian 
Refugee Crisis.'' We are pleased to have a large audience for 
today's hearing, particularly on such a challenging weather 
day--not as challenging as Illinois yesterday, but challenging 
nevertheless. It demonstrates the importance of this issue.
    Thanks to those who are here in person and those who are 
following the hearing on Facebook and Twitter using the hashtag 
#syrianrefugees. There was so much interest in today's hearing, 
we have moved this to a larger room to accommodate everyone. If 
anyone could not get a seat in the hearing room, we have an 
overflow room, 226 Dirksen.
    At the outset of the hearing, we are going to start with a 
brief video to provide some background and context. We are then 
going to have opening remarks--I am hoping that Senator Cruz 
will be joining us shortly--and then turn to our witnesses.
    At this point let us roll the tape, show the video.
    [Videotape played.]
    Chairman Durbin. I would like to thank the U.N. High 
Commission on Refugees for allowing us to use this video and 
for many of the posters that you see around the hearing room. I 
appreciate their outstanding work in helping Syrian refugees, 
and this video gives us some context of the importance and 
gravity of the issue that we are taking up today.
    Today's hearing will focus on the plight of Syrian refugees 
fleeing the violent civil war in their home country. This is 
the world's worst ongoing humanitarian crisis and the worst 
refugee crisis since the Rwandan genocide in 1994, and perhaps 
since World War II.
    Last year, when I visited Kilis, a Syrian refugee camp in 
Turkey, I was especially struck by the plight of the children. 
It is no exaggeration to say that a generation of Syrian 
children is at risk. More than 11,000 children have been killed 
in the conflict, including hundreds who have been shot by 
snipers or summarily executed.
    Let me add for a moment about this visit to this Turkish 
camp, and a word of gratitude to the Turkish Government. Ten 
thousand people were living in that camp, men, women, and 
children. Efforts were being made, superhuman efforts, to 
provide for them, for the basics, for food, for medicine, even 
for basic education. So I want to put my comments in that 
context. Many of those receiving countries who are receiving 
Syrian refugees are making extraordinary sacrifices on their 
own part to help.
    There are 1.1 million Syrian refugee children, 70 percent 
under the age of 12, 60 percent not attending school. One in 
ten Syrian refugee children is working to support their 
families, including some as young as 7 years of age. Thousands 
are unaccompanied or separated from their parents. And we have 
heard troubling reports of boy refugees being recruited as 
combatants and girl refugees being forced into early marriage.
    The onset of winter puts Syrian children at even greater 
risk, especially the hundreds of thousands living in temporary, 
often unheated, tents or shelters. Several children have 
already died from the cold, and, tragically, more are likely to 
follow.
    The Assad regime and, to a lesser extent, some rebel groups 
have blocked humanitarian assistance in a deliberate effort to 
increase pressure on besieged children. Several children have 
already starved to death. One medical expert who examined 
underweight refugee children said, ``We have a middle-income 
country that is transforming itself into something a lot more 
like Somalia.'' Aid workers report that signs are posted at 
regime checkpoints that say, ``Kneel or starve.'' This is a 
deplorable war crime, and it must be stopped.
    I am proud to say that the United States has provided $1.3 
billion in humanitarian assistance to aid Syrian refugees, 
leading the world. We have a moral obligation to assist Syrian 
refugees, but it is also in our national interest to find a 
path to stability in that region.
    This humanitarian catastrophe has created grave challenges 
for neighboring countries--including many U.S. allies--that are 
hosting vast majorities of the refugees. These countries have 
saved the lives of untold numbers of Syrian refugees. We have 
to continue to support them.
    Take a look at Lebanon, a country of 4.4 million people now 
hosting 860,000 Syrian refugees. This is more than 20 percent 
of the Lebanese population. It would be the equivalent of the 
United States facing the sudden influx of 60 million people. 
UNHCR projects that an additional 1 million could arrive in 
Lebanon this year. This has increased competition for limited 
job opportunities, raised food and housing costs for all, and 
created severe strains on schools, health care, and other 
social services. In fact, the number of Syrian school-aged 
refugee children in Lebanon is soon likely to exceed the number 
of Lebanese school-aged children.
    As the Syrian conflict grinds on, UNHCR has begun efforts 
to resettle especially vulnerable refugees in third countries, 
including 30,000 this Fiscal Year 2014.
    For decades, the United States has received more refugees 
than any other country in the world, and the American people 
have greeted these refugees with open arms and hearts. But the 
United States only accepted 31 Syrian refugees in the last 
fiscal year, and the administration has said we are likely to 
accept a few hundred this fiscal year.
    Two years ago, I asked the administration to grant 
temporary protected status to Syrians. As a result, the United 
States is providing a safe haven to hundreds of Syrian visitors 
who were in this country on a temporary basis.
    But we also should accept more vulnerable Syrian refugees 
who have no way of getting to the United States. One issue that 
needs to be addressed is the overly broad prohibition in our 
immigration law that excludes any refugee who has provided any 
kind of support to any armed rebel group, even a group that we 
in the United States support. This would prevent a Syrian who 
gave a cigarette or a sandwich to a Free Syrian Army solider 
from receiving refugee status in the United States, despite the 
fact that the United States is providing assistance to the Free 
Syrian Army.
    At the same time, other countries must play a larger part 
in accepting Syrian refugees. For example, the Conservative 
government in the United Kingdom has said it will not accept a 
single one. And none of the Gulf Arab countries--Saudi Arabia, 
Qatar, and others--have committed to accept Syrian refugees. 
These countries need to step up as well and do their part.
    You heard the statistics. But it is critical to recall that 
behind those numbers are real people. A number of those Syrian 
refugees are here today. I would like to take a moment to 
introduce a few of them who have been fortunate enough to find 
refuge in the United States.
    Eiad Charbaji, please stand. Thank you, Eiad. Mr. Charbaji 
and his wife, Ola Malas--I hope I pronounced that correctly--
are journalists from Damascus who took part in the nonviolent 
protest movement. Mr. Charbaji was arrested and tortured by the 
regime for publishing recordings of the regime's violent 
response to peaceful demonstrations. Ms. Malas' life was 
threatened, as was the life of the couple's 4-year-old 
daughter, Julie. The family fled from Syria in January 2012, 
and Mr. Charbaji came to the United States with the State 
Department's International Visitor Leadership Program.
    Amer Mahdi Doko, please stand. Thank you. Mr. Doko is from 
Darayya--I hope I pronounced it--a suburb of Damascus. He, his 
wife, and his baby now live in Virginia. Mr. Doko was 
imprisoned twice for opposing the Assad regime, once in 2003 
and again in March 2012. After being released in 2012, he fled 
to Jordan. He came to the U.S. after he was admitted to a 
master's program at Georgetown. In August 2012, the Assad 
forces massacred hundreds of civilians in his hometown and 
arrested two of his brothers, who are still, sadly, missing. 
Mr. Doko, who received asylum in 2013, is now working full-time 
and continuing his studies.
    Omar Al Muqdad, please stand. Thank you. Mr. Al Muqdad, who 
is from Dara'a, worked as a journalist for over 9 years, 
publicizing human rights abuses by the regime. He was arrested 
seven times and was imprisoned for 2 years, between 2006 and 
2008. When he refused to stop writing, the prison guards broke 
his hand. After his release from prison, he continued to work 
as a journalist. He participated in nonviolent political 
protests in Dara'a in March 2011 and publicized abuses by 
Syrian security forces. He fled to Turkey in April 2011 after 
he was pursued by the regime. He was resettled in the United 
States by Catholic Charities after receiving refugee status.
    Mr. Al Muqdad has submitted a statement to the 
Subcommittee. I would like to read a portion of it. He said:
    ``I would like to take this opportunity to publicly thank 
the American people for providing me refuge in the United 
States. Also, I would like to urge you to do all that you can 
to make U.S. resettlement available for more Syrian refugees. 
Obviously, the United States cannot resettle all of the 
hundreds of thousands of people who have fled from Syria. But 
there are many very vulnerable people who could be helped, 
including women with problem pregnancies, girls subject to 
forced marriages, orphans, elderly people, and sick people.''
    As this Syrian conflict enters its fourth year, it is clear 
that the refugee crisis is going to continue. While there may 
be differences about how to resolve the conflict, even within 
this panel, there should be no disagreement that it is a moral 
and national security imperative to do all we can to help 
alleviate the suffering of innocent Syrian refugees.
    I look forward to our discussion about what steps Congress 
and the administration should take to address the crisis, and I 
now recognize the Ranking Member of this Subcommittee, Senator 
Cruz of Texas.

              OPENING STATEMENT OF HON. TED CRUZ,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cruz. Thank you, Mr. Chairman. Thank you to the 
witnesses who have come today to this hearing.
    The refugee crisis in Syria is a humanitarian disaster, and 
I want to thank the Chairman for convening this hearing and for 
helping shine the light on what is happening.
    I am the son of a refugee from Cuba who fled oppression, 
and to the refugees who have come here today, let me say 
welcome, and I think the United States should always be a 
clarion voice for freedom and a voice against the oppression of 
the innocent.
    Given what is happening in Syria, the United States is 
rightly participating in the relief efforts there, and I think 
it is critical that our aid be dispensed in a way that is 
consistent with the vital national security interests of the 
United States and, in particular, with our allies in the region 
and maintaining stability in the region.
    In the next few months, we are going to mark the third 
anniversary of the beginnings of the civil war in Syria, which, 
tragically, grinds on with no foreseeable prospect of 
resolution in the future. And the humanitarian crisis continues 
to get worse by the day. Amnesty International estimates that 
some 2.3 million people have been displaced; 52 percent of them 
are children. One-third of Syria's population has been forced 
out of their homes. Jordan's population has increased by 9 
percent, and Lebanon's population has increased by 19 percent.
    This disaster demands the attention of the United States 
not only because Americans are and have been traditionally a 
generous people who have volunteered to step forward with 
assistance in humanitarian crises, but also because this crisis 
threatens the ability of some of our key allies, including 
Jordan, Lebanon, and Israel.
    Given its fragile political situation, Lebanon is a 
particular concern. It would be tragic and dangerous if the 
Iranian-backed Hezbollah militia exploited the humanitarian 
crisis to gain control of the country. And we should be 
particularly concerned by recent reports that Hezbollah is 
smuggling long-range missile systems from Syria into Lebanon, 
where they could be used to target Israel.
    It is also a serious concern that some of the Al-Qaeda-
affiliated terrorists who have infiltrated the Syrian 
opposition have also apparently infiltrated the refugee 
population or are using them as cover to move into host 
nations. This has obviously been a grave concern to many 
countries who have been asked to grant additional visas.
    In addition, I am particularly concerned about the 
neglected plight of many Christian refugees both inside and 
outside of Syria. The reports of the ancient Christian 
communities that are targeted by extremist elements in the 
opposition that the regime forces cannot or will not protect 
are heart-breaking. And as we explore the visa issue, we should 
not neglect the tragic circumstance of Syrian Christians facing 
oppression.
    For a long time, Chairman Durbin has worked hard to ensure 
that perpetrators of human rights abuses do not attain safe 
haven in the United States, and I thank the Chairman for his 
leadership on that issue, particularly through the Genocide 
Accountability Act and the Human Rights Enforcement Act, both 
of which have been made law.
    While we have come a long way because of the Chairman's 
work, his intention highlights that challenges still remain to 
improve Federal law and to strengthen our immigration screening 
system at the front end, thereby ensuring that dangerous people 
are not allowed into this country in the first instance.
    So not only do we have a humanitarian crisis, we have 
potentially a security crisis as well. I look forward to 
hearing the thoughts and learned judgment of the members of 
this panel on how we can approach these interrelated problems 
and hopefully on how we can make progress on alleviating both, 
and I welcome you.
    Chairman Durbin. Thanks, Senator Cruz.
    Senator Klobuchar has asked for a brief opening statement, 
and I am going to offer the same courtesy to the other Members 
who are in attendance here today. Senator Klobuchar.

            OPENING STATEMENT OF HON. AMY KLOBUCHAR,
           A U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Well, thank you so much, Senator Durbin, 
and thank you for holding this important hearing. The conflict 
in Syria remains one of the most crucial foreign policy 
challenges that we face, and addressing this refugee crisis 
caused by the war is essential to our stability in the region 
but, as we can see by the people who have joined us today, the 
refugees, essential to the people of Syria.
    In April, I visited one of Syria's neighbors--actually, two 
of them, Jordan and Turkey, with Senator Graham and Senator 
Gillibrand and Senator Hoeven. And we had the opportunity to 
visit the Zaatari refugee camp in Jordan right on the border 
there and to meet with a few of the 120,000 Syrians that were 
there. I will never forget this visit. I will never forget the 
one man who told us that the atrocities would ``make stones 
cry.'' And then each of the people that we met with went 
through what had happened to their families.
    A young boy name Yurab was only 11 years old, but it felt 
like he had the weight of the world on his shoulders. His 
father had been shot and badly injured before escaping to 
Jordan, and so now it was up to this 11-year-old boy to make 
sure that the rest of his family was taken care of. Every day 
Yurab would stand in line for food and water, and every day he 
would carry what he could hold in his hands back to his family. 
At 11 years old, he had seen more suffering and injustice than 
most people will see in their entire lifetimes.
    This is just one of millions of tragic stories that we 
heard from the men, women, and children who have had to flee 
their homes in Syria. My home State has always been a State of 
refugees. We have one of the largest Somali populations in the 
country, and we have the largest Hmong population in the 
country. We see these refugees, whether they be from Somalia or 
Liberia, as part of the fabric of our State and our culture, 
and we are much the richer for them.
    So I am looking forward to hearing about resettlement 
efforts at this point. I am looking forward to hearing about 
where aid is going, something that Senator Graham and I 
encountered when we were there in terms of an issue, and other 
steps that are being taken to help Syrians that are in 
desperate need of assistance.
    Thank you.
    Chairman Durbin. Thank you.
    Senator Graham, Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE,
         A U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Senator Durbin. I will not 
take long. I just want to thank you for holding this hearing. I 
think it is an issue that merits our attention.
    I think we have been in a hearing on this before, Ms. 
Richard. We have been a day late and a dollar short 
consistently with our response to the Syrian crisis. And as a 
result, we have always been behind the curve, and as a result, 
I think there has been unnecessary human suffering.
    Like Senator Klobuchar, I have traveled to the area with a 
bipartisan delegation. I would like to put into the record a 
letter that Senator McCain and I, Senator Gillibrand, Senator 
Coons, Senator Blumenthal, and Senator Ayotte wrote to the 
President urging a fulsome and robust response to the crisis 
that has developed in Syria. And I hope we learn lessons from 
this because, frankly, we were warned all along the way, and 
despite the warnings from Members of Congress, from allies in 
the neighborhood, we remained always a day late and a dollar 
short. And I think it has been a very unfortunate episode.
    Thank you, Chairman.
    Chairman Durbin. Without objection, the letter will be 
entered in the record.
    [The letter appears as a submission for the record.]
    Chairman Durbin. The Committee, as a matter of standard 
practice, swears in the witnesses, and I ask the three to 
please stand and raise your right hand. Do you affirm the 
testimony you are about to give before the Subcommittee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Ms. Richard. I do.
    Ms. Lindborg. I do.
    Ms. Groom. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
witnesses have answered in the affirmative.
    Each witness is going to be given 5 minutes for an opening 
statement, and their written statements will be included in 
their entirety. Senator Leahy, the Chairman of the full 
Judiciary Committee, who has been a leader on refugee issues, 
has submitted a statement, and without objection, it will be 
placed in the record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Durbin. Our first witness, Anne Richard, currently 
serves as Assistant Secretary of State for Population, 
Refugees, and Migration. Prior to her appointment, Ms. Richard 
was vice president of government relations and advocacy for the 
International Rescue Committee, an international aid agency 
helping refugees internally displaced and other victims of 
conflict. During the Clinton administration, Ms. Richard served 
in a variety of capacities in the State Department and Peace 
Corps and the Office of Management and Budget. Prior to her 
Government service, Ms. Richard was part of the team that 
created the International Crisis Group. She has a B.S. in 
foreign service from the highly regarded Georgetown University 
and an M.A. in public policy studies from the University of 
Chicago.
    Ms. Richard, thank you for joining us today.

          STATEMENT OF HON. ANNE C. RICHARD, ASSISTANT
         SECRETARY, BUREAU OF POPULATION, REFUGEES, AND
      MIGRATION, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Richard. Thank you, Mr. Chairman, and I would like to 
thank the other members, Ranking Member Cruz, Senator 
Klobuchar, and Senators Whitehouse and Graham, for coming out 
today. Senator Graham has sat through and chaired a similar 
hearing, so he is a diehard fan of ours, so we appreciate 
that--or at least very interested in this subject, which we 
appreciate. So thank you for holding this hearing and bringing 
attention to the tragedy unfolding in the Middle East.
    I am here today with colleagues from the U.S. Agency for 
International Development and the Department of Homeland 
Security. I am going to limit my remarks to the State 
Department's role in assisting refugees overseas. We are also 
going to talk about aid inside Syria. Nancy will take the lead 
on that. And then Molly Groom from DHS will talk about 
resettlement. But I am happy to take questions on any of these 
subjects because we are working very closely together on all of 
these things, and in the interest of time, I will keep my 
remarks more restricted.
    You know that more than 2.3 million have crossed Syria's 
borders and, thus, are considered refugees. They have fled to 
all the neighboring countries, most of whom are struggling to 
help them.
    We are incredibly grateful to these countries for letting 
them in, and we want them to keep their borders open and not 
push anyone back. In order for them to do so, these neighboring 
countries need our help. They need our help not just in 
delivering aid to the refugees, but they also need our help for 
their own poor citizens. And they need help for their own 
budgets, which are strained and overstretched by delivering 
services to these much larger populations.
    The impact is that schools have moved to double shifts to 
accommodate Syrian children. Hospital beds are filled by Syrian 
patients. Rents have risen; wages have fallen as a result of 
the competition for housing and jobs. There are water shortages 
in Jordan and Lebanon. The drain on water resources is 
especially severe in Jordan. And helping the host community, in 
addition to the refugees themselves, is an accepted tenet of 
refugee work. We do this, for example, in remote parts of Chad 
where poor Chadians are given help alongside refugees from 
Darfur, and in this case, we need to do more in terms of 
helping them provide services--health care, clean water, extra 
schooling, in addition to items like food vouchers, household 
supplies, and blankets. This will involve more than just 
humanitarian agencies. We need and are getting help from the 
World Bank and our development agencies and our colleagues at 
USAID who work on longer-term development.
    In talking about the situation of the refugees themselves, 
I think that was a very good video that we saw from UNHCR. I 
recently made my sixth visit to the region. My seventh is 
upcoming to Jordan this weekend. Right before Christmas I 
traveled to Erbil in northern Iraq. There I had the pleasure of 
wading through oceans of mud in cold temperatures to visit with 
refugee families and consult with local government officials.
    The good news is that the U.N. agencies, nongovernmental 
organizations, and local charities have managed to house a lot 
of people in tents and keep them warm using an extra layer of 
tenting fabric, kerosene stoves, and lots and lots of blankets. 
Still, this is no place for children to grow up. I saw kids 
there running around in plastic flip-flops without socks. This 
is not a good environment for families.
    And I have met with Syrian refugees in all of the other 
countries bordering Syria. In Lebanon, they continue to keep 
its borders mostly open, and it is now hosting the largest 
number of refugees in the smallest country in the region. You 
have already mentioned its refugees make up 20 percent of the 
population in Lebanon on top of 400,000 Palestinians who have 
been there for decades.
    More than a million refugees are split between Turkey and 
Jordan, and those are just the registered refugees. There are 
many more citizens from Syria living in both of those cities. 
Iraq and Egypt also have large populations of Syrians.
    It is important to know--and I am so grateful that some of 
you have visited the camps, but most refugees do not live in 
the camps. In early December, my Principal Deputy Assistant 
Secretary Simon Henshaw visited refugees in cities of southern 
Turkey, Kilis and Gaziantep, and there he saw the work of NGO's 
and municipal governments struggling to deal with an influx of 
refugees living in the cities and towns of Turkey.
    Despite their efforts, most refugees were not getting 
services and were living in substandard conditions. For this 
reason, one of our top goals is to focus more attention on the 
plight of urban refugees and do everything we can to get aid to 
these families.
    Other challenges that we talk about in the testimony are 
children. The U.N. High Commission for Refugees and UNICEF have 
come together. There is a press statement that came out today 
that Save the Children and World Vision were also involved in 
an initiative that we support called ``No Lost Generation,'' 
trying to make sure that we keep these children inside and 
fleeing from Syria safe, healthy, educated, and away from 
danger. They need a future.
    Another issue of great concern to all of us is protection 
of women and girls, and here we have, I know, a lot of 
bipartisan support. We also have support from Secretary Kerry, 
who has put together an initiative called ``Safe from the 
Start,'' to make sure we protect women and girls in this 
crisis. We are also concerned about them surviving the winter.
    Final remarks. I would like to say that on January 15th we 
will be in Kuwait for a pledging conference to reiterate 
American support for the humanitarian response. Of course, 
beyond that, our Secretary will be heading to the Geneva II 
conference to try to bring peace to this very troubled area. 
This is not the only crisis to which we are rushing 
humanitarian aid. South Sudan is suffering a political crisis 
that has displaced 190,000 of its citizens, with another 32,000 
streaming across its borders. In the Central African Republic, 
UNHCR's latest update puts the number of displaced at 930,000. 
This is 20 percent of that country's population displaced, the 
same proportion as there are refugees in Lebanon.
    This administration is addressing all of these crises and 
other crises at the same time with high levels of vigor and 
energy and dedication. The most senior members of the 
administration are fully engaged, including Ambassador Power, 
National Security Adviser Rice, and my boss, Secretary of State 
John Kerry. But their attention does not necessarily mean that 
these tough situations are easily solved, and we cannot do much 
without your support. Especially in the case of humanitarian 
endeavors, support for our budget and the budgets of all our 
diplomatic and foreign aid activities is very helpful.
    Thank you.
    [The prepared statement of Ms. Richard appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Ms. Richard.
    Nancy Lindborg serves as USAID Assistant Administrator for 
the Bureau of Democracy, Conflict, and Humanitarian Assistance, 
where she leads the efforts of more than 500 team members in 9 
offices focused on crisis prevention, response, recovery, and 
transition. She has led DCHA teams in response to the ongoing 
Syrian crisis, the Sahel 2012 and Horn of Africa 2011 droughts, 
the Arab Spring, and numerous other global crises. She was back 
to her home base in Chicago a few months ago discussing the 
typhoon in the Philippines, so I know you have a very busy 
schedule.
    Prior to joining USAID, she was president of Mercy Corps 
for 14 years, with a B.A. and M.A. in English literature from 
Stanford, an M.A. in public administration from the JFK School 
at Harvard.
    Ms. Lindborg, I want to take this opportunity to thank you 
again for coming to Chicago and for all your good work.
    Please proceed.

         STATEMENT OF HON. NANCY E. LINDBORG, ASSISTANT
         ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT,
          AND HUMANITARIAN ASSISTANCE, U.S. AGENCY FOR
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Lindborg. Thank you very much, Chairman Durbin. Thanks, 
Ranking Member Cruz and other members of the Subcommittee. We 
really appreciate your having this hearing today to shine a 
light on this crisis and, most importantly, put a human face on 
it.
    We have heard the staggering statistics, and the numbers 
are really hard to comprehend, and thank you, Senator 
Klobuchar, for the stories that you told.
    Those in need in this crisis are equal to the entire State 
of New Jersey, and the displaced are as if the entire State of 
Massachusetts were out of their homes. And, most importantly, 
the 5 million children who are affected is equal to the 
children in the entire 25 largest school districts in this 
country. So that is all of New York, all of Los Angeles, you 
know, et cetera, et cetera, for 25 school districts. This is a 
generation of Syrian children who have been traumatized by 
bombs, many of them have lost their homes, their families, 
their friends. And, unfortunately, similar to Massachusetts and 
New Jersey, the region also faces one of the worst winters in 
the last 100 years, adding to the hardship of families out of 
their homes.
    Working in partnership with the international community, 
the United States humanitarian response has reached millions. 
We have saved millions of lives. But we also know that the 
needs are escalating faster than any of our collective 
responses can manage to reach.
    So I would like to cover three quick areas today.
    First, a quick update on our very significant life-saving 
humanitarian response, which does include a focus on the most 
vulnerable, especially women and, very importantly, children 
who will steer the future course of this country and this 
Nation.
    The United States has made a total contribution, as you 
noted, Senator Durbin, of $1.3 billion, and we are reaching 
regularly about 4.2 million people in all 14 Governorates 
inside Syria as well as the 2 million refugees in neighboring 
countries. And we have doubled the number of our partners 
inside Syria, and we are working through all possible 
channels--the United Nations, NGO's, international groups, and 
local. We are reaching about 2.7 million people with medical 
care, and thanks to the many extraordinarily courageous 
doctors, nurses, and health workers who risk their lives every 
day inside Syria.
    We are the single largest donor of emergency food aid, and 
thanks to the very flexible tools that allow us to provide 
vouchers and do local/regional purchase, we are able to feed 
about 4.2 million people inside Syria and 1.3 million refugees 
every day who depend upon that food.
    Finally, all of our assistance takes into account the 
vulnerability particularly of women and children and women who 
experience gender-based violence. As Anne noted, we have an 
initiative called ``Safe from the Start'' that prioritizes this 
in all of our assistance.
    Also as Anne noted, we are working very closely with the 
international community on the No Lost Generation strategy that 
looks at programs to help children inside and outside of Syria, 
and today is the start of a very major multi-partner media 
campaign to put a face on this crisis that has dragged on into 
its third year now.
    So a few key challenges that I want to note. The first is 
that the insecurity of this war zone complicates every day the 
ability to deliver assistance. Roads are closing, hundreds of 
checkpoints make it very dangerous for aid workers to cross 
lines and to get into communities.
    Most concerning, there is an estimated 250,000 people who 
have been completely and deliberately cutoff from humanitarian 
assistance for many months now in areas that are besieged by 
the regime, as you noted, in campaigns that are unconscionable, 
``Kneel or starve.''
    In October, the U.N. Security Council passed a Presidential 
statement that urges all parties of the conflict to facilitate 
immediate access. This statement lays down a very clear set of 
markers for the Syrian regime regarding the world's 
expectations that it will provide the access that it has long 
denied, and by taking these clear steps, the regime has the 
power to enable life-saving assistance to reach more than 
200,000 people in need immediately.
    Finally, resources remain a key constraint, and as we head 
to Kuwait next week for the donors conference, we are making a 
major push for all donors across the globe to step up to the 
plate to help with this escalating burden.
    We have also within USAID reoriented our development 
activities in the neighboring states. We are working with our 
development and humanitarian resources and with our partners to 
help create a comprehensive response for the neighboring states 
that are straining to accommodate the needs of their own people 
in addition to the millions of new refugees, and we are seeing 
this convergence of the poorest communities hosting the largest 
number of refugees. So in Jordan, for example, where the 
domestic water supply is among the lowest in the world, USAID 
used $20 million from our Complex Crises Fund to help 
communities with that large refugee population. So our efforts 
are both to assist with the development needs of communities as 
well as contribute to the region's stability.
    We know that humanitarian assistance is not the solution to 
this horrible crisis, and it absolutely cannot end the 
bloodshed. But it is saving countless lives every day. It is 
helping to protect the vulnerable from a very, very devastating 
conflict.
    The United States remains committed to using every possible 
tool that we can to reach Syrians in need and to bring in our 
full diplomatic weight to help attain greater access.
    So thank you for your time today and for the vital 
congressional support that makes our work possible, and we look 
forward to your questions.
    [The prepared statement of Ms. Lindborg appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Ms. Lindborg.
    We are now going to hear from Molly Groom, Acting Deputy 
Assistant Secretary for the Office of Immigration and Border 
Security at the Department of Homeland Security. Ms. Groom is 
detailed to her current position from her permanent role as 
Chief of the Refugee and Asylum Law Division in the Office of 
Chief Counsel at U.S. Citizenship and Immigration Services. She 
has worked in a variety of capacities on immigration law in the 
Department of Justice and Department of Homeland Security. A 
graduate of Duke with an A.B. in English, a J.D., and her 
master's of social science from Case Western, received the 
National Security Law LLM from Georgetown University.
    I came to know Ms. Groom when she was on detail with 
Senator Menendez to work on the bipartisan comprehensive 
immigration bill that the Senate considered this year--last 
year, I should say.
    Ms. Groom, it is nice to see you again. The floor is yours. 
Do you want to push the button in front of you there?

 STATEMENT OF MOLLY GROOM, ACTING DEPUTY ASSISTANT SECRETARY, 
    OFFICE OF POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Ms. Groom. Yes, thank you so much, Chairman Durbin, and 
thank you, Ranking Member Cruz and the distinguished members of 
the Subcommittee. I appreciate the opportunity to address the 
refugee resettlement and other humanitarian efforts that we are 
undertaking to address the crisis in Syria.
    As you are all aware, the U.S. has a proud and longstanding 
tradition of offering protection, freedom, and opportunity to 
refugees from around the world who fear persecution. Refugee 
resettlement is a cornerstone of our national character and 
reflects our country's commitment to humanitarian ideals. It is 
this commitment which must be carried out in conjunction with 
our overarching commitment to protecting our national security.
    DHS, along with the Department of State, is committed to 
ensuring that the U.S. continues to take a leading role in 
refugee resettlement and other humanitarian protections. The 
U.S. Refugee Admissions Program serves a critical role in 
identifying individuals in need of protection who do not 
present a risk to our national security and who are otherwise 
admissible to the U.S. as refugees.
    It is DHS' U.S. Citizenship and Immigration Services that 
is responsible for determining whether individuals meet the 
refugee definition. They do this by conducting individual in-
depth interviews and considering the results of security 
checks, extensive security checks.
    In 2005, USCIS created the Refugee Corps, a cadre of 
specially trained officers who travel overseas to adjudicate 
applications for refugee status. The officers receive extensive 
training which includes information about the specific 
populations they will be interviewing, including the likely 
types of claims that they will encounter, fraud trends or 
security issues, and detailed country-of-origin information. 
All refugee status determinations undergo 100 percent 
supervisory review before a final decision is reached.
    Security checks are an integral part of the refugee 
resettlement process, and coordinating these checks is a shared 
responsibility between the Department of State and the 
Department of Homeland Security. The refugee vetting process in 
place today employs robust security measures to protect against 
risks to our national security, and DHS would never approve a 
refugee applicant for travel until all required security checks 
are completed and cleared.
    Refugee vetting happens at different stages of the process, 
and the procedures include initial biographic and biometric 
security checks against DHS holdings, FBI holdings, Department 
of Defense holding, State holdings, and intelligence community 
holdings, and those checks are performed again, the interagency 
checks, pre-departure--that is, before the refugee is scheduled 
to travel to the United States.
    While no screening is infallible, we believe that our 
current refugee screening systems are more likely today to 
detect individuals with derogatory information should they 
apply.
    DHS works early on with the Department of State to provide 
feedback on which refugee groups being considered for 
resettlement are likely to qualify and which may pose 
eligibility concerns. The broad definitions of terrorist 
activity and terrorist organizations under U.S. immigration law 
are often a hurdle to resettling otherwise eligible refugees 
who pose no security threat. Examples of these groups include 
the ethnic Burmese who provided food to an individual or Iraqis 
who paid ransoms for the release of family members.
    Given the complexities of the crisis in Syria, we believe 
certain refugees fleeing the crisis may fall within the 
terrorism-related inadmissibility grounds as they are defined 
in the Immigration and Nationality Act. With the breadth of 
these grounds, the law also gives the Secretaries of State and 
Homeland Security, in consultation with the Attorney General, 
broad discretionary authority to issue exemptions when the 
circumstances might justify an exemption. DHS, DOS, and the 
Department of Justice engage in an interagency consultation 
process on the exercise of this exemption authority. This 
process is used to ensure that the terrorism-related 
inadmissibility grounds are applied in a way that protect our 
national security but also allow individuals who pose no threat 
to potentially receive immigration benefits that they are 
otherwise eligible for.
    If the Secretary of Homeland Security or the Secretary of 
State exercises the exemption authority, the Department of 
Homeland Security or the Department of State may then apply 
these exemptions on a case-by-case basis, taking into 
consideration the totality of the circumstances. Any individual 
who poses a threat to the safety or security of the U.S. would 
not be eligible for an exemption.
    We are ever mindful that addressing humanitarian needs must 
be coupled with robust measures to protect national security, 
including the security screening of refugee applicants. With 
regard to the population fleeing Syria, the Department of 
Homeland Security and the Department of State have had a series 
of conversations with UNHCR on how best to address resettlement 
of Syrians and any potential exemption-related issues. With 
regard to possible new exemption authority, interagency 
consultations are ongoing.
    I appreciate the opportunity to testify and for your 
interest in how we are approaching resettlement of refugees 
fleeing the crisis in Syria, and I would be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Groom appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Ms. Groom.
    UNHCR has begun efforts to resettle especially vulnerable 
refugees in third countries, including 30,000 in Fiscal Year 
2014. I am struck by that number, that they are trying to 
resettle 30,000 and we are talking about an order of magnitude 
in the millions of refugees, but 30,000 is the UNHCR target 
number.
    Now, the United States typically accepts more than half of 
resettlement refugees under this type of program. Ms. Richard, 
administration officials previously told the staff of our 
Subcommittee that the United States is likely to accept only a 
few hundred Syrian refugees in this fiscal year, which ends in 
October, October 1st. However, in your testimony today, you 
said, and I quote, "We expect to accept referrals for several 
thousands refugees in 2014."
    Can you please clarify that?
    Ms. Richard. Thank you for your question, and I get asked a 
lot about whether we will accept refugees in the United States, 
not just here in Washington but also when I travel overseas, 
because the neighboring countries would like us to, out of 
solidarity with them, bring in our share of refugees as well. 
And I explain to them that it is our tradition to do so. We 
have every intention of doing so. We are not at all opposed to 
bringing Syrian refugees to the United States.
    The fact that we have not brought many so far is due to:
    First, our hope, and now discarded, that this conflict 
would be over quickly and they would be able to go home 
quickly, and that has not been the case.
    Second, we take refugees after they have been referred by 
the U.N. High Commission for Refugees, UNHCR, and so that 
process did not start at once, but instead started after a 
period of time.
    And now our own process takes a little while. It is very 
deliberate and careful. It is designed to be that way to make 
sure that we only take bona fide refugees.
    So we are working very quickly now to respond to referrals 
from UNHCR and to start that process of bringing in refugees. 
And so I think that UNHCR's desire to send 30,000 to new homes 
in other countries this year is ambitious, and I want to do 
everything we can to bring in as many as we can to the United 
States before the end of the fiscal year, but in all honesty, I 
do not think you will see big numbers until next fiscal year, 
the end of this calendar year.
    Chairman Durbin. And, of course, it is difficult to speak 
to our allies and friends and ask them to also bear the burden 
if we do not do it as well.
    Ms. Richard. That is right. And the good thing is, I was 
able to say that we could be counted on to bring in refugees, 
in part because we have this tradition that has bipartisan 
support on the Hill of bringing refugees. Last year, we brought 
70,000, and that was the closest we had come in 30 years to 
reaching our target level. We got 99.9 percent of the refugees 
we plan to bring in we brought in, so we have done a lot of 
things to make sure our process works quickly and well. But it 
is deliberately supposed to be designed that bona fide refugees 
come in and bad guys do not come in, and that process that 
Molly Groom has described very well of checking to make sure 
that we are only bringing bona fide refugees does take a little 
time.
    Chairman Durbin. So let us go to the bad guy issue and talk 
about it for a moment. I mentioned it at the outset because of 
concerns over what we have heard in terms of applying the rules 
as written, that if someone is seeking refugee status and they 
have somehow even supported an armed rebel group, which the 
United States is directly supporting, it could in some cases 
raise questions if not disqualify them.
    The same questions have been raised about those who help 
groups under duress. It was a witness before this Committee or 
a case before this Committee of a Colombian nurse who, at the 
point of a gun, was providing medical assistance to a FARC 
injured rebel and was disqualified as a refugee because of her 
involvement, even though her actions were under duress.
    The point made by Senator Cruz is obvious and valid. We do 
not want anyone to come into the United States who will be a 
threat to our security. That is something I think we owe the 
American people, is the assurance we have done everything 
humanly possible to stop that from occurring.
    So let me ask you at this point, Ms. Groom, as you reflect 
on this, can you update us on the status of exemptions that 
have been prepared for cases like those that I have described? 
And what is the timetable for a decision about a proposed 
exemption to the material support bar, which I think is an 
overarching description of what we have been describing?
    Ms. Groom. Thank you for the opportunity to talk about the 
TRIG grounds, as we call them, terrorism-related 
inadmissibility grounds, and the exemption process. As you 
note, the terrorism-related inadmissibility grounds are quite 
broad because of the definition of ``terrorist organization'' 
and because of the definition of ``terrorist activity.'' A 
terrorist organization includes any undesignated terrorist 
organization, which means any two members who use a firearm or 
other weapon with the intent to endanger. That is a terrorist 
organization if they engage in terrorist activity.
    So the exemption process is the flexibility that is 
provided for in the law, and the interagency working group that 
I mentioned has exercised an exemption for those who provide 
medical care under duress. There is also an exemption for those 
who provide material support under duress. So those exemptions 
are already in place and may be useful with the population 
fleeing Syria.
    I believe you were asking about something that we have been 
discussing for quite some time and whether or not there should 
be an exemption for insignificant amounts of material support. 
And with that exemption, it is on an accelerated track. We are 
nearing the finish line, and we are at the point of senior-
level engagement, and we are going to bring this to a close in 
the interagency and it will be moving to the secretarial level 
for decisionmaking very shortly. So I hope to have good news on 
that front soon.
    Chairman Durbin. Thank you.
    Ms. Lindborg, when I visited the refugee camp in Turkey, 
10,000 people--and as I said, I thought it was an extraordinary 
effort by the Turkish Government to accommodate a large number 
of people, men, women, and children--we went into the 
classroom, and I am sure these children were completely beside 
themselves to figure out who we were or why we were there. They 
were Syrian children who were in a classroom being taught in 
Turkish and greeted by American visitors in English. I am sure 
that they were puzzled as to what life held for the next day.
    But it raises a question that you have addressed here, the 
so-called lost generation. What are we going to do with these 
children as they lose their opportunity for a normal, regular 
education? What efforts, as you mentioned, are underway to try 
to avoid this?
    Ms. Lindborg. Well, there is a unified campaign and 
strategy under the heading of No Lost Generation that is 
looking at how do we pull together the resources from both our 
humanitarian accounts with our partners as well, both inside 
and outside Syria and in the neighboring countries, and how do 
we focus in on all the ways that we can help children both 
access education and be provided with the kind of safe spaces 
and opportunities that create a little more normalcy in their 
lives?
    So, for example, in Lebanon, in addition to the assistance 
that we are providing through our humanitarian efforts, we are 
also with our development funds focusing in on education, 
because one of the big challenges is the number of Syrian 
children in Lebanon who need to be accommodated by an already 
overburdened school system. You already have double shifts in a 
lot of the schools in Lebanon.
    So the focus is to create that comprehensive approach where 
we are able to bring in the development funds that help both 
the communities but also get kids into school, get kids into 
ways that they have more of a sense of future and hope.
    Unfortunately, inside Syria, it is much more complicated 
because it is difficult to restore infrastructure when they are 
still under aerial bombardment. So in those instances, it is 
more of a focus of the kind of psychological or safe spaces 
that we can help to provide those kids, and also just that they 
get clothing and food to eat.
    Chairman Durbin. Thanks.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman, and thank you to 
each of the members of the panel today.
    Assistant Secretary Richard, could you put the impact of 
the displaced Syrian refugees into historical perspective? What 
comparable events have we seen in the past? And what have been 
the consequences of those?
    Ms. Richard. We have not seen anything like this in several 
decades, and, you know, the Rwandan genocide sent people 
fleeing from Rwanda, but it was a very short period of time in 
which they were on the move, and then there was a larger effort 
to address the situation after they had fled to Zaire, the 
modern-day Democratic Republic of Congo.
    We saw widespread chaos in the Balkans in the mid-1990s 
that involved pulling together a lot of different parts of the 
United Nations, peacekeepers, diplomatic measures.
    This is different in many ways in that one of the things 
that has happened--and this was referenced earlier--is we have 
seen a country lose about 35 years of development. In a sense, 
it is the suicide of Syria because the hospitals have been 
bombed, schools have been bombed, civilians have been killed by 
the tens of thousands. And when we talk about No Lost 
Generation, this ought to be the generation that will be the 
future of Syria. I do not know where the leaders are going to 
come from if they are not in school and if their families are 
torn apart and they are traumatized from what they have 
witnessed.
    So this sets a horrible new standard, I think, in our 
historic annals in terms of the amount of mayhem and tragedy 
that can be spread in a couple years.
    Senator Cruz. And in terms of prior refugee crises, what 
efforts have been undertaken to alleviate those crises? And how 
successful would you characterize those efforts as having been?
    Ms. Richard. I think today we see the fruits of some of the 
lessons learned in the past, because never before have I seen 
such an impressive group of U.N. agency heads, including a few 
Americans--Tony Lake runs UNICEF, and Ertharin Cousin from 
Chicago runs the World Food Program. So we have a lot of very 
good relations with the U.N. leadership there, and also we have 
some really good experience behind them. And also we have much 
more professional aid workers on the ground using more time-
tested techniques to help people.
    The problem is that it is such an overwhelming crisis that 
even though so many lives have been saved and so many people 
have gotten help in the places to which they have run, it is 
not enough. It requires more. This is why we are taking 
extraordinary measures like the Kuwait pledging conference, 
held for a second year soon, and trying to pull the world 
together, get new donors to the table, get never before degrees 
of coordination among all the players in the field to work 
together.
    Senator Cruz. And this is a question for anyone on the 
panel who would care to respond, but in your judgment, how 
would you assess the impact of this crisis on U.S. allies in 
the region and, in particular, Lebanon in terms of the 
stability and security?
    Ms. Richard. I will start. I think it is having a 
devastating impact. It is undermining the stability of the 
region. It is no longer a Syria crisis; it is a regional 
crisis. And, you know, we have very close relationships in 
Jordan. Our embassy works very closely with the government 
there. They are very, very worried about their abilities to 
host this third wave of refugees because they have hosted 
Palestinians for decades, they have hosted Iraqi refugees, 
recently an uptick in refugees from Iraq coming into Jordan, 
and now they have opened their homes and cities and towns and 
schools to the Syrians.
    The only place worse off than Jordan in terms of the 
concerns and the fears of the government officials with whom I 
meet is Lebanon, and Lebanon has just not got a society and a 
government organized to respond as robustly as some of the 
other countries. And so there has been increased tensions 
within that society. Even as they brought in more refugees than 
any other state, and even as they have been very generous in 
letting people come and kept their borders open, the tensions 
have built, and the internal sectarian tensions are also on the 
rise. And so we should all be very concerned about what this 
crisis means for the countries in the region.
    Senator Cruz. And let me again ask the panel, in your 
judgment, how serious a threat and how widespread are we seeing 
the infiltration and exploitation of refugees by Al-Qaeda and 
radical extremists?
    Ms. Richard. I will answer that. It is not large numbers. 
Most refugee groups that you meet, most in the camps are 
civilians, families, law-abiding people who are just shattered 
by what is happening in Syria. The thing that we know, though, 
is it does not take a lot of evildoers to cause a lot of havoc. 
And so it is not a wide problem, but it is a real problem.
    And so that is why I respect your concern that we do 
everything we can to avoid radicalization and also to make sure 
that borders are guarded carefully so that only legitimate 
refugees come across, which will be the--most of the people 
will be legitimate refugees, but also that bad element is kept 
out. And what I fear for, though, is I do not want Americans to 
equate refugees with terrorists and--they are not. And the 
refugees here today with us are journalists and scholars and, 
you know, family people. So that is--I guess I do not have to 
convince you if your parents were refugees, but I do think that 
sometimes Americans who have not personally met refugees are 
fearful. Once they meet refugees, usually they are convinced. 
Refugees themselves make the best Ambassadors to this program.
    Senator Cruz. Thank you very much.
    Chairman Durbin. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all of you, our witnesses.
    The one thing that I thought was good that you talked about 
early on is that we focus a lot on the camps. Several of us, as 
you noted, have been there, but that, in fact, most of the 
refugees are out in the countries in Jordan for the most part 
and other countries. And I understand nearly 520,000 refugees 
are in Jordan, increasing that country's population by 9 
percent, over 750,000 in Lebanon, adding 20 percent.
    When we visited Jordan last April, we met with the king, 
and he met with us for a significant period of time and talked 
about how the refugee situation was increasingly difficult for 
his country to handle.
    To you, Secretary Richard, and then Administrator Lindborg, 
how do you assess the current stability of Jordan considering 
the massive refugee influx?
    Ms. Richard. First, I would just like to say that Nancy 
Lindborg is from Minnesota. She is not from Illinois, okay? So 
we should just out her right there.
    Senator Klobuchar. I can tell by her last name.
    Ms. Lindborg. But I lived in Chicago for 4 years.
    Ms. Richard. I lived there for 2 years.
    So we are very concerned about Jordan, which is why we 
spend a lot of time visiting with our colleagues who work in 
Jordan, and also with the Ambassador here, and we have a very 
active embassy there led by Ambassador Stu Jones, and we have a 
lot of colleagues who are working in Jordan to work very 
carefully with the government, which is very aligned in their 
approach to the crisis to provide assistance. They know that 
our funding in the State Department Population, Refugees, and 
Migration Bureau that I lead goes through the U.N. High 
Commissioner for Refugees, goes through the International 
Organization for Migration----
    Senator Klobuchar. Is it true that---just speaking of the 
U.N. High Commission, I know when Senator Graham and I were 
there, we were really concerned that the aid goes through--when 
it comes from the United Nations, it only goes through the 
Assad regime. Is that correct?
    Ms. Richard. No, that is not correct.
    Senator Klobuchar. So----
    Ms. Richard. The Assad regime does not benefit from U.S. 
taxpayer support to----
    Senator Klobuchar. So the U.N. aid can go through the rebel 
groups?
    Ms. Richard. What is true is that--and Nancy I can tell 
wants to pick up on this. What is true is that the U.N. 
agencies need the permission of the Assad regime to bring their 
staff in on visas and to set up their operations in Damascus, 
and then they try to get as far around Syria as they can get.
    Senator Klobuchar. Okay, but that does mean that they have 
control over where the aid goes, and it makes it harder for it 
to go to certain regions. Is that right?
    Ms. Richard. Yes.
    Senator Klobuchar. Okay. If you want to go back to the 
original question----
    Ms. Lindborg. Yes, to both, but just to finish on this, the 
constraints on providing assistance from a Damascus base are 
the core parts of this October statement that was released that 
has a very specific list that we are happy to send to you all, 
that says these are the things that we need for that assistance 
to be able to reach people in need more effectively, and it is 
in particular the 200,000 who are in areas besieged by the 
Syrian regime as well as about 2 million people who are in 
conflict-affected areas. So we have a lot of concerns about the 
ability to reach everyone in need.
    To your question about Jordan, I think that for both Jordan 
and, as Anne said, Lebanon as well, there is a lot of concern 
about the stability when you have that level of influx of 
refugees. In Jordan, we have put about $1 billion of assistance 
through development aid to Jordan, both for budget support as 
well as into those communities that have the greatest refugee 
burden. There is a lot of concern about stressed infrastructure 
and about very scarce resources, and so we have put much of our 
development assistance focus on that.
    We are also, as we provide humanitarian assistance, looking 
at ways that not only it benefits the refugee population but 
also the locals. So because of this flexibility that we have 
with some of our food aid assistance, we have done vouchers 
that enable the refugees to buy food in local stores. So it is 
a revenue benefit for the local merchants, which makes a huge 
difference in terms of community acceptance.
    Senator Klobuchar. Ms. Groom, I was looking at the numbers 
from Southeast Asia, and I think we got 130,000 Southeast Asian 
refugees that came to the U.S. at the end of the Vietnam War. 
And many of them are in Minnesota, and also I would note you 
mentioned the Burmese, many of them are in Minnesota as well. 
And I am just concerned when I hear these numbers, hundreds 
that Senator Durbin was talking about, even though Assistant 
Secretary Richard talked about thousands, but I am very 
concerned about the numbers when I think that we should be 
making it easier, while still checking everything you need to 
check.
    I know in the immigration bill there are actually some 
provisions that have passed the Senate that would make it 
easier to speed up some of these asylum applications. Would 
that be helpful?
    Ms. Groom. Yes, thank you so much for the question. As you 
note, in Senate bill 744 it does remove the 1-year filing 
deadline from asylum claims, and that is something we have 
seen. In the past year, 1,335 Syrians have applied for asylum. 
Now, while there is an exception for the 1-year filing deadline 
right now, if it were removed and the Senate bill were passed, 
it would make those claims move more quickly. And it seems to 
be the right result given the crisis there.
    There are also some other changes to the refugee program 
that are contained in the bill that might be useful for 
resettling refugees, and then there are changes also to the 
expedited removal and the credible fear process.
    Senator Klobuchar. How many do you think we are going to be 
able to resettle in the U.S. in the coming year when there are 
135,000, or whatever, that have applied?
    Ms. Groom. Well, I think Assistant Secretary Richard spoke 
to--the numbers will really probably--the referrals are 
starting, are going to start coming in very shortly, but then 
the process works, and it takes a bit of time. So we are going 
to start seeing arrivals not until the end of this year, 
likely.
    Senator Klobuchar. It just seems like such a long time, and 
I will just end with that, and just say to the refugees that 
are here with us today, the three that got here, Mr. Doko and 
Mr. Charbaji and Mr. Muqdad, how sorry I am about this. And on 
Christmas Eve, our church, like many churches in the U.S., 
everyone holds a candle, and we go around and sing ``Silent 
Night.'' And I had been thinking of Syria for a number of 
weeks, I will be honest about that, and that was all I could 
think about when I stood there, was those refugees that, when 
we went and visited them, the rebels were doing much better. 
And we said, ``Oh, we know this is going to improve for you by 
the end of this year. We know the situation is improving.'' And 
to me, it has only gotten worse.
    And so that is why I am so much interested in this idea of 
the resettlement and working with our allies and leading so 
that other countries in Europe and other places will also bring 
in these refugees as we do not see an immediate end to this 
conflict. So I appreciate your efforts. Thank you.
    Chairman Durbin. Thanks, Senator Klobuchar.
    I want to thank my colleague Senator Graham for his 
patience in waiting and especially for his dedication to Syria 
and the challenges it faces. Senator Graham.
    Senator Graham. Well, thank you, Mr. Chairman, for, one, 
hosting this hearing. I think most Americans are concerned 
about a lot of things, and Syria is hard to get people's 
attention about, not because Americans are hard-hearted but the 
complicated world in which we live. So hearings like this are 
very important, and I want to compliment my Ranking Member 
here. I think he understands exactly what is going on.
    Ms. Groom, in 2014, does Congress need to do anything 
pretty soon to make sure that we can achieve our fair share of 
the refugees in changing the laws? Do you have any proposals?
    Ms. Groom. I do not have any proposals to offer you today, 
but we have offered to work with the Senate----
    Senator Graham. Well, I guess what I am saying, I do not 
see a comprehensive immigration bill passing anytime soon, so 
when it comes to changes in our laws, exemptions, if you need 
something beyond the ability you have within the body that you 
work, please let us know, because I think a lot of us may have 
different views about immigration but would be willing to 
accommodate some legal changes if it would help expedite this 
process. So that is an opportunity for you.
    Ms. Groom. And I welcome that opportunity.
    Ms. Richard. A couple of ideas right off the top of my 
head, never missing an opportunity. You know, we have this sort 
of tradeoff to make within our budget at the State Department. 
How much do we devote to bringing refugees to the U.S.? And how 
much do we devote to helping refugees overseas in the places 
where they live? We help far more overseas. And so it sounds 
like there is support here for bringing even more refugees to 
the United States beyond the 70,000 that we brought. But in 
order to do that, we would hate to undermine our overseas 
programs, and so we need support for both.
    Senator Graham. Well, let us talk about this. I think there 
is bipartisan support for trying to do a better job in terms of 
assimilating non-terrorist refugees in the United States. I 
just think Senator Cruz represents what can happen when you 
take people from other countries. You know, our country 
benefits. And I am sure there are Democrats who were refugees, 
too, so we do not want to make this partisan.
    [Laughter.]
    Senator Graham. But the bottom line is I think America has 
a pretty good track record of assimilating people.
    Now, about the budget, the World Food Program, how much of 
their budget is allocated to Syria?
    Ms. Lindborg. Increasingly, a large percentage. I can----
    Senator Graham. Well, I just met with a lady in Rome. She 
says they are being overwhelmed.
    Ms. Lindborg. They are overwhelmed. We are the largest 
single donor, and it vacuums up all of our flexibility.
    Senator Graham. Her budget is being destroyed.
    Ms. Lindborg. As is our----
    Senator Graham. Every other refugee problem in the world is 
being displaced by Syria, so the World Food Program is being 
devastated by Syria.
    Now, when it comes to appropriations, Ms. Richard, I am the 
Ranking Republican working with Senator Leahy. We tried to 
increase funding, and there is a limit to what we can do. But 
could you provide the Appropriations Committee and the 
Judiciary Committee with what you think would be a 2- or 3- 
year plan here? Could you see the war ending this year?
    Ms. Richard. Regrettably, no.
    Senator Graham. Do you think Al-Qaeda is going to go to 
Geneva, too?
    Ms. Richard. Well, I do not hang out a lot with Al-Qaeda, 
so----
    Senator Graham. I know, but I do not think they are going 
to be invited.
    Ms. Richard. I think the chances for Geneva II making some 
modest successes are increasing just in these last few days, 
but I defer to Robert Ford on that.
    Senator Graham. Well, I hope you are right, but here is 
what I see----
    Ms. Richard. But I think--I know where you and I agree is 
that this is not an easy crisis to end, to clean up.
    Senator Graham. What I am trying to lay out is that the 
worst is yet to come. Do you agree with that?
    Ms. Richard. I hope that is not the case.
    Senator Graham. Hope is not my question. Do you agree that 
the worst is yet to come?
    Ms. Richard. If I were not a hopeful person, I would not be 
in my job.
    Senator Graham. Okay. Well, just from an analytical point 
of view, Ms. Lindborg, do you think the worst is yet to come?
    Ms. Lindborg. Well, we do know that this is the largest 
U.N. appeal in history, and it is more than two-thirds of the 
rest of the global appeals put together.
    Senator Graham. Well, do you think, Ms. Richard, that 2014 
is dramatically better for Syria or worse in terms of the 
refugee----
    Ms. Richard. What concerns me is the idea of donor fatigue 
taking hold. We have been trying to get more donations from 
other countries, and so if it continues the way it has--and I 
would be stupid to suggest it might not. If it continues that 
way, we have got to somehow enlist new donors to come and----
    Senator Graham. Well, do you think it would be wise for 
America to plan for the worst and hope for the best when it 
comes to Syria?
    Ms. Richard. I agree that in dealing with a refugee crisis 
of this magnitude, we have to have contingency plans for some--
--
    Senator Graham. So let us put a scope on what----
    Ms. Richard. Really scary scenarios.
    Senator Graham. Okay. Let us start to talk about some of 
those scary scenarios that are not unrealistic. You were at 
the--and, you know, you do a good job. I do not mean to be 
combative here. At the hearing we had in Appropriations, didn't 
the Lebanese Ambassador say his country was saturated?
    Ms. Richard. Absolutely. He had--UNHCR has provided the 
photos to show that there are Syrian refugees on every square 
turf in Lebanon.
    Senator Graham. He says basically they cannot take any more 
people. What is the likelihood in 2014 of Lebanon closing their 
borders to Syrian refugees?
    Ms. Richard. I am going to try----
    Senator Graham. Would you agree that would be a bad 
situation----
    Ms. Richard. To keep that from happening?
    Senator Graham. Yes, but, you know, trying--I am trying to 
plan for the worst case.
    Ms. Richard. A worst-case scenario would be a lot more 
refugees streaming out of Syria. The amazing thing to me is 
that not more have. They clearly are trying to stay put.
    Senator Graham. I think the worst-case scenario would be if 
they had no place to go. So what is the likelihood of Lebanon 
and Jordan closing their borders, because their countries' 
sovereignty and security is at risk, to Syrian refugees in 
2014?
    Ms. Richard. We have seen that what is happening is that 
the borders have already been moved from being open in most 
cases to being managed.
    Senator Graham. Could you give me a plan? Let us assume the 
worst now. What would our response be as a world and as a 
nation if in 2014, God forbid, the Lebanese closed their 
border, the Jordanians closed their borders? You do not have to 
answer that question now, but I think we need to get really 
serious about this, because I think the worst is yet to come. 
And, God, I hope I am wrong. I hope I am wrong.
    Ms. Richard. One of the things that is good is that the 
U.N. appeals assume, you know, more challenging scenarios and 
so--and build in those funding.
    In terms of our being able to respond, I think that we have 
benefited from your work and Senator Leahy's work last year 
that provided----
    Senator Graham. But it really is inadequate over time, 
don't you think? That what we are doing today, if this 
continues, that the Congress needs to seriously look at coming 
up with a funding plan for----
    Ms. Richard. The reason it is inadequate is because we have 
not seen other countries step up, and we have other crises to 
deal with. And the other piece that I want to make sure I 
mention to you all today is that the Department of Health and 
Human Services helps refugees once they have arrived in the 
U.S. We provide the aid, thanks to you all, for the first 30 to 
90 days. But after that, it is up to HHS to provide aid through 
the States. That has been underfunded.
    Senator Graham. I am giving you an opportunity here to tell 
us that maybe the worst is yet to come and prepare Members of 
Congress who are sympathetic with a bill you may send us. So if 
I were you, I would suggest to take this opportunity to sit 
down and write out what we may be facing as a Nation in terms 
of our obligations to stabilize the region. That is all I am 
asking.
    Ms. Lindborg. And we very much appreciate that. Just to 
your point, we keep passing the worst-case scenario. So we need 
to be thinking of that. There have already been extraordinary 
strains on the system. We keep coming up with new ways of 
addressing it, and we will continue to be faced with that 
pressure, and we would very much welcome the opportunity to 
work with you all further on envisioning what that might take.
    We were able to do the response that we did in this last 
Fiscal Year because of the very important support that we 
received, especially from the Senate. So we thank you for that, 
and I think that the partnership into the future will be 
really, really important.
    Chairman Durbin. Thanks, Senator Graham.
    I want to ask three last questions, and I will allow 
Senator Cruz if he would like to as well. We have not mentioned 
Egypt, which is receiving over 130,000 Syrian refugees. We read 
about Egypt every day and the political instability and 
violence in that nation. In Lebanon and Jordan, I have a 
different mind's image of what is going on on the ground. There 
is weakness, vulnerability, and worry.
    But in Egypt, it looks like clear instability. And I would 
like to ask, Syrian refugees who fled to Egypt face challenges 
because of this political turmoil. Conditions for Syrian 
refugees who fled there appear to have deteriorated in recent 
months as their political environment has deteriorated in 
Egypt. Some Syrian refugees in Egypt have reportedly faced 
arbitrary detention and deportation back to Syria.
    Ms. Richard, has the U.S. Government taken any steps to 
address the concerns that have been raised about the treatment 
of Syrian refugees in Egypt?
    Ms. Richard. Yes, Senator. As you said, more than 130,000 
Syrian refugees have been registered in Egypt. There is an 
additional 20,000 awaiting registration. Most are living in 
greater Cairo; significant numbers are also in Alexandria. And 
on July 8th, the interim Egyptian Government imposed 
restrictive entry procedures requiring Syrians to have a valid 
visa and prior security approval. Tensions have resulted in 
increasing hostility toward Syrians and Palestinians from Syria 
and have led to detention and deportations of refugees.
    So the U.S. is providing funding to UNHCR and other U.N. 
agencies to address their needs, and UNHCR has appealed to 
Egyptian authorities to admit and protect all Syrians seeking 
refuge.
    At this morning's State Department's staff meeting, we were 
joined by Assistant Secretary Anne Patterson, who until 
recently was our U.S. Ambassador to Egypt, so I know she is 
fully aware of this. And she was part of a conversation this 
morning about Syrian refugees.
    Chairman Durbin. Ms. Lindborg, there is a practical issue 
here on this No Lost Generation that gets down to something 
very basic, and that is the fact that babies are being born in 
these refugee settings. A recent UNHCR survey on birth 
registration revealed 781 Syrian newborns in Lebanon; 77 
percent of them had no official birth certificate. They are 
technically stateless at this point. These numbers are a 
concern because, as UNHCR indicates, unregistered refugee 
children can face increased risk of exposure to violence, 
abuse, and exploitation. The numbers may be low when you 
consider the universe of refugees, due in part to the barriers 
at birth registry that refugee families encounter in Jordan and 
Lebanon, including complex registration procedures.
    Has the U.S. Government taken any steps with UNHCR, NGO's, 
and host governments to address the issue of statelessness 
among Syrian refugee children? Either Ms. Lindborg, Ms. 
Richard, or Ms. Groom.
    Ms. Richard. I will take that and get back to you on that. 
I know statelessness is one of the UNHCR's key mandates, 
fighting statelessness, and it is something we pay a lot of 
attention to globally. And I do not know the answer, so I will 
get back to you on that, Senator. Thank you.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. So let us use this opportunity to give a 
shout-out, if we fail to, to private sector efforts to try to 
help in this refugee situation. I understand IKEA is trying to 
develop a new shelter. I do not know much more about it----
    Ms. Richard. They have developed it. It is really nifty, as 
you would expect. But the IKEA Foundation helps refugee 
situations in other places, too, but their new shelter is 
something that can be folded up into a suitcase so that that 
way the home can travel with the refugees wherever they are.
    Chairman Durbin. It was reported only recently Lebanon 
started to allow these IKEA refugee housing units to be used to 
shelter Syrians for fear that housing too sturdy and protective 
would encourage them to stay indefinitely. I have always found 
that interesting. When I travel around the world and I visit 
with refugees, they are okay, but they are usually complaining 
a little bit--not enough foods, problems here, there, and the 
other place. And the administrators of many refugee settings 
have said, ``We do not want them to get too comfortable. We 
want them to consider where their next move will be. Hopefully 
it is back home.'' Well, back home is out of the question now 
with Syria's circumstances here.
    But could you address either this particular issue or that 
general concern of the administrators of refugee camps?
    Ms. Richard. Well, I have had discussions about this with 
the Minister of Social Affairs in Lebanon, Abu Faour, and he--
because I was trying to convince him to allow these IKEA 
shelters to be used by the refugees. And so I am very pleased 
that they have made this change in their policy.
    What several governments in the region are concerned about 
is that they will host the refugees for a long, long time, and 
the reason they are concerned is because Jordan, Lebanon, and 
Syria were three of the five fields where Palestinian refugees 
live. And now Palestinian refugees are fleeing from Syria, 
which had been a very safe place for them to live, and 
primarily going to Lebanon.
    And so I think we have to respect the government officials 
who are concerned about protracted refugee situations in this 
part of the world because they have firsthand experience with 
it, and that is partly why I feel we should support them and 
make it easier for them to host the refugees, even as we try to 
do everything we can to get the Syrian refugees home.
    Chairman Durbin. There has been a great deal of interest in 
today's hearing. The turnout evidences that, and dozens of 
organizations--I am going to read their names because some of 
them are doing extraordinarily good work. Catholic Relief 
Services and others have presented testimony, which will be 
part of the record. The Center for Victims of Torture, Church 
World Services, the Episcopal Church, Evangelical Lutheran 
Church of America, Human Rights First, International Rescue 
Committee, joint statement of the Iraqi Refugee Assistance 
Project and HIAS, Human Rights Initiative of North Texas, 
Lutheran Immigration and Refugee Services, Mercy Corps, Oxfam, 
Refugee Council USA, Refugees International, Save the Children, 
Syrian American Medical Society, UNICEF, U.S. Conference of 
Catholic Bishops, and World Relief, and without objection, we 
will place their statements in the record.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. The record is going to be open for a week. 
You may get a few additional questions, and you promised me a 
few additional responses, and I appreciate what you had to say.
    And I will say in closing here this was a pretty diverse 
political group sitting up here, and this is not always the 
type of topic that attracts anybody other than the Chairman and 
a Ranking Member. And it is an indication to me of something 
good and positive. We see a problem. We are a caring people. We 
want to do something about it. We want it to be thoughtful, as 
Senator Cruz says, not to endanger the United States in any 
way, but to do our part to deal with a worldwide problem, which 
he appreciates more than any of us could on this panel.
    So those who have given up on this institution, I hope 
today's hearing is an indication that sometimes we kind of do 
move in the right direction, even if we have different starting 
places.
    If there are no further comments from our panel, I want to 
thank the witnesses for attending, my colleagues for 
participating, and the hearing stands adjourned.
    [Whereupon, at 3:54 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
</pre></body></html>
